Office of Inspector General
for the Millennium Challenge Corporation


May 31, 2011

Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Review of
Millennium Challenge Corporation-Funded Contracts with Government-Owned
Enterprises in Tanzania (Review Report No. M-000-11-006-S). In finalizing the report,
we considered your written comments on our draft report and included those comments
in their entirety in Appendix II of this report.

The review report contains one recommendation. We assessed whether selected
government-owned enterprises adhered to MCC policies and procedures that address
(1) quality construction, (2) environmental protection, (3) worker health and safety, and (4)
sound labor practices when implementing MCC compact projects; and whether the
Millennium Challenge Account-Tanzania adhered to MCC’s Program Procurement
Guidelines when selecting government-owned enterprises to implement compact
projects. We consider that a management decision has been reached on the
recommendation. Final action will not be reached on the recommendations until MCC
provides additional documentation.


I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,

  /s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation



Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY
This review is in response to Congressman Frank R. Wolf’s September 29, 2010,
request to review Chinese government-owned enterprises (GOEs) that receive contracts
for Millennium Challenge Corporation (MCC)-funded programs. Congressman Wolf
requested that the Office of Inspector General (OIG) review the extent to which Chinese
GOEs adhere to health and safety, environmental, quality construction, and labor
policies, and whether the procurement process was open, fair, and competitive.

On September 27, 2010, MCC amended its Program Procurement Guidelines (Interim
Amendment Notice 2010-001) to prohibit GOEs from competing for MCC-funded
contracts 1 . MCC made this amendment to help ensure a level playing field for
commercial firms from all countries. Owing to the challenge of determining whether a
company is actually government-owned, MCC has identified a process to recognize GOEs
if they bid for contracts.

In February 2008, MCC signed a 5-year, $698 million compact with Tanzania aimed at
reducing poverty and stimulating economic growth through investments in the
transportation, energy, and water sectors. The compact included $373 million primarily
for road improvements, $206 million to improve the reliability and quality of electric
power and extend electricity service to unserved communities, and $66 million to
increase the availability of potable water, plus funding for administration of the compact.
The compact entered into force in September 2008 and will conclude in September
2013. Execution of the compact takes place through the Millennium Challenge Account-
Tanzania (MCA-T), the host government entity charged with implementing the terms of
compact. As of September 30, 2010, MCA-T had committed $528 million for the
Tanzania compact.

MCC identified contractors on three MCC-funded road improvement projects in Tanzania
as GOEs. The total amount awarded to the three GOE contractors was $170 million.
MCA-T awarded a $53.1 million contract to Sinohydro for the Tanga-Horohoro road
construction project in December 2009. Sinohydro won an additional $59.8 million
contract for the Peramiho Junction road construction project in July 2010. In September
2010, MCA-T awarded a $57.1 million contract to China New Era for the Ikana-Laela
road construction project. The OIG team visited the Tanga-Horohoro project because it
had advanced beyond mobilization into construction at the time of the review.

The objective of the review was to answer the following questions:

•   Did the selected government-owned enterprises adhere to MCC policies and
    procedures that address (1) quality construction, (2) environmental protection, (3)
    worker health and safety, and (4) sound labor practices when implementing MCC
    compact projects? 2


1
  As of September 2010, contracts were awarded to government-owned enterprises that totaled
$400 million (see Table 2 in Appendix III).
2
  In a separate audit (Audit Report No. M-000-11-003-P) issued March 30, 2011, OIG reported on
worker health and safety and labor practices in Tanzania. As a result, this review focused on the


                                               2
•   Did the Millennium Challenge Account (MCA) adhere to MCC’s Program
    Procurement Guidelines when selecting government-owned enterprises to
    implement compact projects?

During the early stages of the contract, Sinohydro’s adherence to the quality standards
in the contract was not always satisfactory; however Sinohydro’s performance has
improved and the review located no instances in which Sinohydro is currently failing to
meet the quality of construction standards. To illustrate, although Sinohydro’s internal
Quality Assurance System Plan was comprehensive and provided detailed requirements
on how the various elements of work would be executed, Sinohydro was not always
complying with the plan during the beginning stages of construction. For example,
Sinohydro crushed 5,000 tons of unsuitable stone that had to be reprocessed (page 5).

OIG found no examples of Sinohydro noncompliance with MCC’s environmental
protection policies and procedures. For example, Sinohydro was spraying road
construction areas for dust abatement and Sinohydro employees participated in an
HIV/AIDS awareness training (page 6).

However, as part of a separate audit, OIG found that Sinohydro did not always fully
comply with MCC’s policies and procedures regarding health and safety and local labor
laws. For example, Sinohydro had not provided adequate training, personal protective
equipment, or water to its workers and some workers were not always paid properly for
overtime work. MCC and MCA-T officials stated that Sinohydro had improved its
compliance onsite since the previous audit (page 9).

The review located no instance in which MCA-T failed to adhere to MCC’s Program
Procurement Guidelines when selecting the three reviewed GOEs to implement compact
projects. MCA-T developed its own standard bidding documents and received MCC
approval for them. MCA-T and the procurement agent advertised the procurement
opportunities, prequalified contractors, obtained bids, convened technical evaluation
panels, produced bid evaluation reports, and selected the contractors based first on
technical compliance and then on lowest cost (page 7).

Although Sinohydro’s compliance with MCC’s policies and procedures has improved,
some project risks may affect on-time completion. Sinohydro purchased bitumen 3 from
an unallowable source, which meant that the bitumen could not be used and must be
replaced (page 5). Further, although the contractual relationship between Sinohydro
and the supervisory firm Intercontinental Consultants and Technocrats (ICT) needs to be
an independent one, there are significant tensions between Sinohydro and ICT, and
between Sinohydro and its workers, that could further exacerbate project delays (page
10).

The report recommends that MCC:



GOEs’ compliance with MCC policies and procedures regarding environmental protection and the
quality of construction, and MCA-T’s adherence to MCC’s Program Procurement Guidelines.
3
  Bitumen is a component of asphalt and tar that is used for surfacing roads.



                                             3
1. Document and report its action plan to the Office of the Inspector General that
   includes (a) identifying a new source of bitumen, (b) ensuring that the bitumen is
   tested and meets quality standards and is approved by the supervisory engineer,
   and (c) ensuring that Sinohydro revises its work plan to show how it will complete the
   project on time (page 6).

Detailed results appear in the following section. The scope and methodology appear in
Appendix I. Management decision has been reached on the recommendation. Final
action will not be reached on the recommendation until MCC provides additional
documentation.




                                           4
REVIEW RESULTS
Additional Improvements Needed
in Sinohydro’s Compliance with
Construction Quality Requirements

While Sinohydro did not always comply with quality standards in the contract during the
early stages of construction, its performance has improved and it is now meeting the
construction quality standards.

Sinohydro has an internal Quality Assurance System Plan, dated April 2010, that is
comprehensive and provides detailed requirements on how the various elements of work
will be executed. The plan provides a system for meeting material specifications and
approvals, work method review and approval, and a detailed listing of material
requirements that must be met as part of the testing program. All materials must meet
the specified parameters based on laboratory testing that is ongoing throughout the
project timeline.

According to its results to date, Sinohydro has had a steep learning curve in meeting all
of the stringent specifications for the various construction materials and other
workmanship requirements for this project. Through close supervision and direction by
the supervisory engineering firm, Sinohydro has steadily improved compliance with the
contract quality requirements, although it has not achieved full compliance with the
following key quality-related contract terms and specifications:

   1. Initial production of suitable stone aggregate from the crushing plant
   2. Construction of the supervisory engineer’s independent laboratory in a timely
      manner
   3. Purchase and delivery of bitumen from an allowable source, as stated in the
      contract

Corrective actions have been taken on the initial issue noted above, as Sinohydro
crushed 5,000 tons of unsuitable stone that had to be reprocessed. The supervisory
engineer’s materials testing laboratory is nearing completion, but it may be so late in
delivery that its usefulness for this project will be limited.

The quality control process did not identify the procurement and delivery of the asphalt
bitumen to the project site from an unallowable source country. Several steps are
required by the contract and Sinohydro’s Quality Assurance System Plan before
Sinohydro would be authorized to purchase the bitumen. Specifically Sinohydro’s plan,
paragraph 2.6, page 33 required the following:

   (a) The various types of bitumen must meet the American Association of State
       Highway and Transportation Officials (AASHTO) specifications.
   (b) Representative test certificates showing relevant properties of the bitumen must
       be submitted to the supervisory engineer for approval.
   (c) Samples of the materials must be submitted together with test results.




                                           5
   (d) New test certificates and samples must be provided for approval if there are
       changes in the type or source of the bitumen, crude oil source, and refinery plant
       or refinery method.
   (e) The technical specifications in the contract required a variety of tests to confirm
       the quality of any bitumen product selected for purchase.

If all of these quality control tests and approvals had been performed, then Sinohydro
would have been aware of the source country for the bitumen.

At the time of the OIG team site visit, the issue of where the new bitumen material would
be obtained was undetermined. This delay in the source identification, sample testing,
purchase, and delivery of the bitumen product for the road is a significant project issue
and a major project risk that could cause delays and compromise paving quality in a
compressed construction schedule.           Therefore, this audit makes the following
recommendation:

   Recommendation 1.            We recommend that the Millennium Challenge
   Corporation document and report its action plan to the Office of the Inspector
   General that outlines the steps by the respective parties to fully resolve this issue
   including (a) identifying a new source of bitumen, (b) ensuring that the bitumen is
   tested and meets quality standards and is approved by the supervisory engineer,
   and (c) ensuring that Sinohydro revises its work plan to show how it will complete
   the project on time.

Sinohydro Complied with the
Environmental Management Plan

MCC’s authorizing legislation, the Millennium Challenge Act of 2003, Section 605 (e),
point 3, prohibits assistance to any project “likely to cause a significant environmental,
health, or safety hazard.” As part of its efforts to manage environmental risks, MCC
requires contractors to develop, implement, and comply with a site-specific
Environmental Management Plan.

Sinohydro developed a site-specific Environmental Management Plan for the Tanga-
Horohoro road activity that was approved by MCA and reviewed by MCC in April 2010.
The plan identified environmental risks during various phases of construction and
outlined steps to mitigate these potential negative impacts. For example, according to
the plan, Sinohydro will spray dry road sections and stockpiles with water for dust
abatement. During the site visit, OIG observed that Sinohydro was spraying water along
the road construction site. In another example, to prevent and control the spread of
HIV/AIDS, Sinohydro employees participated in an HIV/AIDS awareness training. In
November 2010, half of the employees attended the first 8-hour session, and in the
following month additional workers were trained.

According to the supervisory engineer, Sinohydro was not in full compliance with the
plan when construction began, but as a result of pressure from stakeholders its
environmental management has improved over time. In addition, the supervisory firm




                                            6
would not approve Sinohydro’s requests for inspection 4 unless Sinohydro met the proper
environmental requirements.

MCA-T Adhered to MCC’s
Program Procurement Guidelines
When Selecting GOEs

The OIG found no examples of MCA-T noncompliance with MCC’s Program
Procurement Guidelines when awarding the contracts to Sinohydro and China New Era
for the three MCC-funded road improvement projects. MCA-T developed its own
standard bidding documents and received MCC approval for them. MCA-T advertised
the procurement opportunities in local, regional, and global media outlets. Contractors
from 15 different countries submitted applications for the roads. The GOEs won on the
basis of technical compliance first and then lowest cost. There were no bid challenges. 5

Twelve contractors 6 applied for pre-qualification 7 on the Tanga-Horohoro road project.
Four of the 12 were selected for pre-qualification and 3 of the 4 firms submitted bids.
The technical evaluation panel 8 evaluated the bids first for technical quality and then by
cost. The committee performed a qualification assessment on Sinohydro, the lowest
bidder, and awarded it the contract.

MCA-T chose to pre-qualify contractors for several road segments of the Mainland Trunk
Activity, and Ikana-Laela and Peramiho Mbinga were part of those efforts. MCA-T
advertised for pre-qualification for the road segments, but was not satisfied with the
number of applicants. As a result, MCA-T relaxed some of the requirements, such as
the financial turnover ratio. During the first round, MCA-T received 11 applicants, and
after reposting received 15 applicants (resubmitted applications from the same 11
applicants, along with an additional 4 applicants). Ten of the 15 applicants pre-qualified
to bid on one or more of the road segments.

Eight firms pre-qualified for Ikana-Laela and four firms submitted bids. The technical
evaluation committee panel evaluated bids first for technical quality and then by cost.
The committee performed a qualification assessment on the lowest bidder’s documents,
and found discrepancies in the bidding documents which led to the bidder’s



4
  Requests for inspection are submitted by the contractor to the supervisory firm for approval of
work during construction. Work cannot continue unless the supervisory firm approves the
requests for inspection.
5
   A bid challenge is submitted by bidders or potential bidders that believe they have been
damaged by a violation of the procurement principles or procedures by the MCA entity.
6
  Thirteen applicants submitted applications for pre-qualification, but one applicant mistakenly
submitted the application for the wrong road and did not intend to submit a bid for Tanga-
Horohoro.
7
   Pre-qualification of bidders is conducted for large or complex works, or for any other
circumstances in which the high costs of preparing detailed bids could discourage competition.
Pre-qualification is based entirely on the capability and resources of prospective bidders to
perform the particular contractor satisfactorily.
8
  Technically qualified panels evaluated each bid or technical proposals. Panels generally consist
of three to five technical members, all of whom are qualified to review and evaluate the substance
of the proposal.


                                                7
disqualification. Therefore, MCA-T performed a qualification assessment on the next
lowest bidder and awarded the contract to China New Era.

For Peramiho, eight firms pre-qualified and four firms submitted bid applications. The
technical evaluation committee panel evaluated bids first for technical quality and then
by cost. The committee performed a qualification assessment on the lowest bidder,
Sinohydro, and subsequently it was awarded the contract.

       Table 1: Procurement Results on Three MCC-Funded Road Activities

Road Activity                   Tanga–Horohoro       Ikana–Laela      Peramiho Mbinga
Contract Award                     Sinohydro        China New Era        Sinohydro
Contract Amount                   $53,131,189        $57,050,577        $59, 845,418
Number of Applicants                   13                 15                 15
Requesting Pre-qualification
Number of Applicants Pre-               4                  8                  8
qualified
Number of Applicants That               3                  4                  4
Bid After Pre-qualification




                                            8
STATUS UPDATE
Improvement Made in
Compliance with Health and
Safety Management Plan
and Tanzanian Labor Laws

As part of the Millennium Challenge Corporation’s (MCC’s) efforts to manage health and
safety risks, MCC requires contractors to develop, implement, and comply with a site-
specific Health and Safety Management Plan. MCC also requires contractors to comply
with Tanzanian labor laws. A separate Office of Inspector General (OIG) audit 9 reported
that Sinohydro was not fully compliant with its Health and Safety Management Plan and
Tanzanian labor laws. Sinohydro had not provided adequate training, personal
protective equipment, or water to its workers at the time of the audit team’s first visit in
October 2010, even though all of these provisions are required by the Health and Safety
Management Plan.

Although the OIG team did not specifically review health and safety compliance on its
second visit, MCC and Millennium Challenge Account-Tanzania (MCA-T) officials told
OIG that Sinohydro’s compliance had improved. The officials said that Sinohydro had
provided workers with additional protective equipment, and was also regularly providing
water. The OIG team observed during the second site visit that water was now being
provided to workers. In addition, the supervisory firm’s report stated that the contractor
had provided additional personal protective equipment.

Further, the previous OIG audit indicated that some workers on this construction project
were not always being paid properly for overtime work. As a result, MCA-T officials
contacted the Tanzanian Labor Ministry and requested assistance with this issue. The
ministry conducted labor inspections onsite, and Sinohydro has increased the workers’
daily wages. According to the supervisory firm’s report, overtime is now paid and
weekly rest days and holidays are observed.




9
    Audit Report No. M-000-11-003-P.


                                             9
OTHER MATTERS FOR
CONSIDERATION
Tensions Could Further
Exacerbate Project Delays

The road is scheduled for completion by April 2012, but the project is behind schedule.
According to a Millennium Challenge Corporation (MCC) official, Sinohdyro was 90 days
behind its original work schedule in December 2010. Sinohydro increased the number
of laborers and working fronts and revised its work schedule. According to an MCC
official, as of April 15, 2011, Sinohydro is between 41 and 47 days behind this new
schedule.

Significant tensions exist between Sinohydro and its workers, and between Sinohydro
and its supervisory firm Intercontinental Consultants and Technocrats (ICT), which could
further exacerbate project delays. In January and February 2011, some workers staged
protests and work stoppages at two of the four work camps. On one occasion, the
workers objected to the contractor’s handling of an alleged theft by an employee. On a
second occasion, workers complained of a misunderstanding regarding an HIV/AIDS
training program. However, in both cases, the workers expanded their list of concerns to
include other labor issues, such as wages and the timing of their payments.

Furthermore, the level of cooperation between Sinohydro and ICT has become a project
risk. Instead of working side by side and verbally communicating, the two parties are
exchanging letters. Millennium Challenge Account-Tanzania (MCA-T) officials stated the
conflict between the two parties has not been productive. An MCC official stated that
ICT needs to accept and reject work more quickly. For example, requests for inspection
from Sinohydro to ICT have at times taken weeks rather than days, and prevented
Sinohydro from moving forward on the project.

MCA-T has recognized the significance of these tensions and has taken steps to
address them. To improve working relations between Sinohydro and the Tanzania
laborers, MCA-T has involved the Tanzania Labour Ministry. The ministry has a local
office onsite where workers can express their grievances. To address the working
relationship between ICT and Sinohydro, MCA-T has written two letters to the president
of ICT expressing dissatisfaction with the supervision of Sinohydro and asking ICT to
improve its contract administration and supervision.

MCC provided the Office of Inspector General (OIG) with an update of the steps taken to
address tensions between ICT and Sinohdryo. MCC officials told OIG that subsequent
to the OIG visit, MCA-T has taken additional steps to improve the relationship
between Sinohydro and ICT, and they continue to report positive results. On April 4,
2011, there was a meeting at the MCA-T offices in Dar es Salaam that involved senior
officials from both ICT and Sinohydro. This followed similar meetings onsite the week
before. Both ICT and Sinohydro have acknowledged the need for more frequent, civil,
and cooperative communication and have now set up biweekly one-on-one meetings
between the ICT resident engineer and Sinohydro project manager in an effort to resolve


                                          10
issues. ICT also will be deploying additional personnel to the site and Sinohydro will be
adding two key personnel to further address problems. According to MCC, both MCC
and MCA-T will continue to closely monitor the evolving relationship between these two
firms as part of the ongoing project monitoring and performance management.

Although MCC and MCA-T have taken steps to address these issues, additional project
delays could occur if these efforts fail. Because MCA-T has taken actions, this review is
not making recommendations at this time.




                                           11
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments on our draft
report that are included in their entirety in Appendix II of this report. In its comments,
MCC agreed with our recommendation.

MCC has been working to ensure that Sinohydro identifies new sources of bitumen. In
addition, the supervising engineer will give formal permission to Sinohydro to use the
bitumen upon acceptance of test results and the provision of a manufacturer’s test
certificate. Technical and management staff from both Sinohydro and the supervising
engineer have also produced a revised workplan to meet all contractual requirements
and deadlines.

On the basis of MCC’s actions, the Office of Inspector General (OIG) considers that a
management decision has been reached. However, final action will not occur until MCC
provides additional documentation showing the source of the bitumen, test results and
manufacturer’s test certificate, and Sinohydro’s revised work plan to show how it will
complete the project on time.




                                           12
                                                                          APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG) conducted this review as a response to
Congressman Frank R. Wolf’s September 29, 2010, request to review Chinese
government-owned enterprises (GOEs) that receive contracts for Millennium Challenge
Corporation (MCC)-funded programs. To put the results in a broader context, OIG
expanded the review to other GOEs that received infrastructure contracts for MCC-
funded programs. Congressman Wolf had four specific areas of concern regarding the
contractors’ compliance with MCC policies and procedures: (1) health and safety,
(2) environmental protection, (3) qualify construction, and (4) sound labor practices. He
also asked whether the procurement was open, fair, and competitive.

Although this review was not an audit, we conducted this review in accordance with
Government Auditing Standards, July 2007 Revision (GAO-07-731G) specifically
Chapter 3 and Chapter 7, Sections 7.55 and 7.72 to 7.79. We planned and performed
this review to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our review objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.

OIG conducted its fieldwork from November 15, 2010, to April 12, 2011, at MCC
headquarters in Washington, DC, with site visits to Tanzania from February 7 to 15 and
March 14 to 18, 2011. OIG selected Tanzania because MCC identified three Chinese
GOEs with contracts totaling $170 million there. However, because two of the three
contractors were in mobilization stages and construction had not yet begun, OIG
focused on the Tanga-Horohoro road project and reviewed only the procurement
process for the Peramiho Junction and Ikana-Laela projects. In addition, a separate OIG
audit 10 reported Sinohydro’s noncompliance with its Health and Safety Management
Plan and Tanzanian local labor laws. As a result, this review focused on Sinohydro’s
compliance with MCC policies and procedures regarding environmental protection, the
quality of construction, and MCA-T’s adherence to MCC’s Program Procurement
Guidelines. Because the request focused specifically on GOEs that received MCC
funds, the OIG did not review private sector companies implementing MCC projects.


Methodology
To address Congressman Wolf’s concerns, we established audit steps to determine
whether: the selected GOEs adhered to MCC policies and procedures that address
environmental protection and quality construction when implementing MCC compact
projects, and whether the MCA-T adhered to MCC’s Program Procurement Guidelines
when selecting GOEs to implement compact projects. Specifically, we performed the
following activities—




10
     Audit Report No. M-000-11-003-P.


                                           13
                                                                           APPENDIX I


•   Interviewed MCC and MCA-T officials to gain an understanding of how they ensure
    adherence to MCC policies and procedures.

•   Interviewed contractors and implementing entity officials to gain their perspective on
    the GOEs’ adherence to MCC policies and procedures.

•   Reviewed documents supporting the procurement process for the three road
    activities, including advertisements to bid, bidding documents, final bid evaluation
    report, due diligence process, and contracts awarded.

•   Conducted a site visit to Tanga and observed the contractor’s compliance with the
    Environmental Management Plan.

•   Reviewed monthly reports from the implementing entity, supervisory firm, and
    independent engineer.

•   Engaged an engineer to review the quality of construction and ensure that
    substandard materials were not used in the MCC project.




                                           14
                                                                             APPENDIX II



MANAGEMENT COMMENTS

DATE:          May 16, 2011

TO:            Alvin Brown, Assistant Inspector General
               U.S. Agency for International Development


FROM:          Patrick Fine, Vice President /s/
               Department of Compact Operations
               Millennium Challenge Corporation

RE:            Management Response to OIG Review of Government Owned Enterprises
               (GOE) in Tanzania (Report No. M-000-11-00X-S)

Dear Mr. Brown:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to
the USAID Office of Inspector General’s (OIG) draft report entitled “Review of
Millennium Challenge Corporation-Funded Contracts with Government Owned
Enterprises in Tanzania.” The report contains one recommendation:

        We recommend that Millennium Challenge Corporation document and
        report its action plan to the Office of the Inspector General that outlines
        the steps by the respective parties to: (a) identify a new source of bitumen,
        (b) ensure that the bitumen is tested and meets quality standards and is
        approved by the supervisory engineer, and (c) ensure that Sinohydro
        revises its work plan to show how it will complete the project on time.

MCC Response: MCC has no objection to this recommendation.

MCC has already provided the OIG information on sources and quality of bitumen and
has no objection to providing similar information in the future. The presence of
prohibited bitumen was discovered as a direct result of MCC’s standard oversight efforts,
and before any of the material was actually used. MCC reported this to the OIG. As
soon as the problem was discovered, Sinohydro, acting on appropriate instructions from
the supervising engineer, Independent Consultants and Technocrats Pvt. Ltd. (ICT),
quickly removed all of the prohibited bitumen from the MCC project site at its own
expense, and immediately sought other sources to replace it. Consequently, all
management action necessary to address this recommendation has taken place or is in the




                                             15
                                                                             APPENDIX II


process of execution, as described in further detail below. MCC believes that this
recommendation should have been removed from the report or deemed already met.

With respect to recommendation 1(a), there are two new sources of bitumen that are
expected to be sufficient to meet the project’s entire needs. First, more than 196 metric
tons of bitumen are already available in Tanzania. Sinohydro has begun using the locally
available supply of bitumen for its immediate program needs after review and approval of
the supply by the supervising engineer. Second, additional bitumen from acceptable
sources (e.g. Egypt), in quantities sufficient to meet the entire needs of the contract, have
been identified by Sinohydro.

With respect to recommendation 1(b), the formal approval process for Sinohydro to use
the additional bitumen is currently underway. In accordance with contract terms, the
supervising engineer will give formal permission to Sinohydro to use the bitumen upon
acceptance of test results and the provision of a manufacturer’s test certificate.

With respect to recommendation 1(c), technical and management staff from both
Sinohydro and the supervising engineer have produced a revised workplan, or “recovery
programme” under which Sinohydro is expected to increase the pace of its program to
meet all contractual requirements and deadlines. The revised workplan takes into
account all variables that may affect Sinohydro’s achievement of the contractual
completion deadline of April 2012, including factors such as weather. MCC’s compact
with the Government of Tanzania ends in September 2013, well beyond the current
contractual deadline of April 2012. Therefore even under the worst case scenario, delays
beyond Sinohydro’s April 2012 performance period could be acceptable, provided that
the delays do not result in any sustainable legal claims or lack of quality.




                                             16
                                                                                 APPENDIX III




       Table 2: Government-Owned Enterprises Awarded MCC-Funded Contracts

                                                                   Nationality
      MCA                                                              of         Value of Contract
  Country 11                    Company Name                        Company            Award
 Benin           GTZ                                               Germany        $     11,969,525
 Burkina Faso GTZ                                                  Germany               9,628,943
 Georgia         Oil & Gas Construction Trust                      Azerbaijan            6,345,230
 Georgia         Khazardenizneftgastikinti Trust                   Azerbaijan            8,358,967
 Georgia         Khazardenizneftgastikinti Trust                   Azerbaijan            4,679,535
 Georgia         Oil & Gas Construction Trust                      Azerbaijan           2,806,440
 Ghana           China Railway Wuju Corporation                    China               42,168,601
 Ghana           Arab Contractors, Osman Ahmed Osman & Co          Egypt                 9,484,800
 Madagascar      GTZ                                               Germany               3,415,396
 Mali            SinoHydro                                         China               71,619,477
 Mali            SinoHydro                                         China               46,328,142
 Namibia         GTZ                                               Germany               7,826,423
 Namibia         China Jiangsu International Ltd                   China                4,587,734
 Tanzania        SinoHydro                                         China               53,131,189
 Tanzania        SinoHydro                                         China               59,845,418
 Tanzania        China New Era                                     China               57,050,577
 Total                                                                            $   399,246,397
 Source: Millennium Challenge Corporation. Nonaudited data




11
  OIG selected Millennium Challenge Account (MCA) countries in which Chinese government-
owned enterprises were implementing Millennium Challenge Corporation infrastructure projects
(Ghana, Mali, Namibia, and Tanzania). OIG also included any non-Chinese firms implementing
infrastructure projects in these countries (Arab Contractors, Egypt). For MCA countries without a
Chinese government-owned enterprise presence, OIG did not review the non-Chinese firms.


                                               17
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
